APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals for
the Federal Circuit (August 5, 2020)................ la
Order of the United States Court of Appeals
for the Federal Circuit Denying Motions to
Reconsider (November 18, 2019).................

17a

Decision of the Trademark Trial and
Appeal Board of the United States
(December 13, 2018)........................

19a

Rehearing Order
Order of the United States Court of Appeals for
the Federal Circuit Denying Petition for
Rehearing En Banc (October 23, 2020)........... 26a

App.la

OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE FEDERAL CIRCUIT
(AUGUST 5, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
KRIS KASZUBA, dba Hollywood Group,
Appellant,
v.
ANDREI IANCU, Under Secretary of Commerce
for Intellectual Property and Director of the
United States Patent and Trademark Office,
Intervenor.
2019-1547
Appeal from the United States Patent and
Trademark Office, Trademark Trial and
Appeal Board in No. 92061976.
Before: O’MALLEY, BRYSON, and
REYNA, Circuit Judges.
O’MALLEY, Circuit Judge.
This appeal stems from a cancellation proceeding
before the Trademark Trial and Appeal Board
(“Board”). The record reveals a proceeding peppered
with unnecessary filings, ultimately concluding with
sanctions in the form of default judgment. Finding no

App.2a
abuse of discretion or legal error in the Board’s deter­
minations, we affirm.
I.

Background

Cancellation proceedings before the Board are
largely governed by the Federal Rules of Civil Proce­
dure. See 37 C.F.R. § 2.116(a). This cancellation
proceeding presents a tangled procedural history. We
discuss only those aspects relevant to our decision.
A. Pleadings
Appellant Kris Kaszuba (“Kaszuba”) successfully
registered his mark HOLLYWOOD BEER on the
Supplemental Register on July 15, 2008, as Registration
No. 4,469,935. The registration was based on the mark’s
purported use in commerce for beer. On August 4,
2015, Hollywood Vodka, LLC (“HVL”) filed an applica­
tion for cancellation of Kaszuba’s mark under Section
1064 of the Lanham Act.l HVL alleged that: (l) the
Board had refused registration of HVL’s pending trade­
mark application partly because of the registration of
Kaszuba’s mark; (2) Kaszuba had committed fraud on
the USPTO in obtaining registration of his mark;
and (3) Kaszuba had not used his mark in commerce.
Kaszuba filed an answer to the petition on
September 15, 2015. He followed this filing with a
motion to dismiss, which the Board refused to consider
because Kaszuba filed it after filing his answer. The
Board subsequently conducted a discovery conference,
1 Despite several notices from the court, Petitioner HVL did not
file an entry of appearance in this appeal. The Director of the
United States Patent and Trademark Office (“USPTO”) filed a
notice of intervention pursuant to 35 U.S.C. § 143.

App.3a
and, upon reviewing the pleadings, determined that
HVL had failed to properly plead its fraud claim.
Accordingly, the Board directed HVL to file an amended
petition repleading the fraud claim within fifteen days.
It is undisputed that HVL did not meet its
Friday, March 25, 2016 deadline to file an amended
petition. Instead, HVL filed serial amended petitions
on March 28, 2016 (“Amended Petition”) and March
29, 2016 (“Second Amended Petition”), respectively.2
These amended petitions were only a few days late,
and differed materially in just one respect: the Second
Amended Petition corrected a typographical error,
specifying that in its “Claim 1,” HVL was seeking
cancellation based on “fraud” not “abandonment.” In
response, Kaszuba filed a motion to dismiss, asserting,
inter alia, that HVL’s amended pleadings were
untimely and that HVL did not have a real interest
in the cancellation proceeding. HVL opposed the motion
to dismiss, arguing that the Board, in its discretion,
should accept the untimely filing because of excusable
neglect and that it had plausibly alleged a real interest
in the proceeding.
The Board construed HVL’s excusable neglect
arguments as a request to reopen the time to file
HVL’s amended petition and to accept the Second
Amended Petition as the operative pleading in the
matter. J.A. 366 (citing Fed. R. Civ. P 6(b)). It granted
HVL’s request based on excusable neglect after con­
ducting an analysis of the factors articulated in Pioneer
Investment Services Co. v. Brunswick Associates
L.P., 507 U.S. 380 (1993). J.A. 366-69. The Board also
2 The Board received paper copies of these petitions on March
31, 2016, and April 4, 2016, respectively.

App.4a

concluded that HVL had (l) sufficiently pled entitle­
ment to bring this cancellation proceeding; and (2)
adequately pled its fraud claim; and (3) failed to
plead the elements of an abandonment claim. J.A.
372-73.
B. Discovery
Like the pleadings stage, discovery was belabored.
On January 23, 2017, in response to Kaszuba’s motion
to disqualify HVL’s newly appointed counsel, the
Board issued an order denying the motion and noting
that “[p]rogress in this case has been delayed signif­
icantly based on the filings of both parties.” J.A. 528.
The Board required Kaszuba to obtain leave of the
Board’s Interlocutory Attorney before filing any future
submissions in the case. It did not require HVL to do
the same because HVL had retained new counsel.
On November 27, 2017, the Board granted-in-part
HVL’s motion to compel discovery after Kaszuba failed
to respond to interrogatories and document requests.
The Board ordered Kaszuba to provide discovery but
denied HVL’s motion to the extent HVL requested
sanctions against Kaszuba. At the same time, the
Board warned Kaszuba that if he failed to respond to
the discovery, HVL’s “remedy may lie in a renewed
motion for sanctions, including entry of judgment as
appropriate.” J.A. 744. The Board also required both
parties to seek leave before filing any motions.
Rather than responding to the discovery, Kaszuba
filed a request for permission to submit a request for
reconsideration of the Board’s November 27, 2017
order. After conducting a telephone conference, the
Board denied this request.

App.5a
Kaszuba again failed to respond to the discovery
requests. Another round of a motion for sanctions (filed
by HVL without leave), denial, and a motion for
reconsideration (filed by Kaszuba without leave), and
denial followed. In its denials of these motions, the
Board remarked that Kaszuba had “deliberately
sought to evade and frustrate” HVL’s efforts to obtain
discovery. J.A. 821. Although the Board concluded that
imposing sanctions would be unduly harsh, and gave
Kaszuba an extension to serve the delayed discovery,
it again warned Kaszuba that if he failed to comply
with the discovery order, judgment would be entered
against him on motion by HVL. J.A. 822. Undeterred,
Kaszuba continued to file additional “communications”
with the Board, seeking reconsideration of its orders.
He also filed two untimely petitions with the Director
alleging unfair treatment by the Board, despite the
Board granting him a third extension to serve the
delayed discovery.
Kaszuba never served the requested discovery.
After the time for service had passed, HVL filed a
renewed motion for sanctions after obtaining leave
from the Board, seeking either an entry of judgment
against Kaszuba or an order precluding Kaszuba
from introducing any evidence at trial. On December
13, 2018, the Board granted the motion for sanctions—
this time entering judgment against Kaszuba. The
Board recognized in its decision that default judgment
is a harsh remedy. It found, however, that it was
warranted under the circumstances because “no less
drastic remedy would be effective and there is a
strong showing of willful evasion.” J.A. 5.
Kaszuba timely filed a notice of appeal. We have
jurisdiction under 28 U.S.C. § 1295(a)(4)(B).

App.6a

II.

Discussion

We review the Board’s legal conclusions de novo,
and its factual findings for substantial evidence. In
re Pacer Tech., 338 F.3d 1348, 1349 (Fed. Cir. 2003)
(citations omitted). On appeal, Kaszuba argues that
the Board (l) impermissibly allowed HVL’s “untimely”
and “futile” amendments to the petition; (2) erred in
denying Kaszuba’s motion to dismiss for failure to plead
entitlement to the cancellation proceeding and fraud;
and (3) abused its discretion in imposing sanctions
and entering default judgment against Kaszuba. We
address each issue in turn.
A. Excusable Neglect
After analyzing HVL’s claim of excusable neglect
under the four factors identified in Pioneer Investment
Services Co., the Board accepted the Second Amended
petition even though it was filed out of time. In
Pioneer, addressing the meaning of “excusable neglect”
(as used in the Federal Rules), the Supreme Court
explained that the determination is:
[A]t bottom an equitable one, taking account
of all relevant circumstances surrounding
the party’s omission. These include . . . [l]
the danger of prejudice to the [non-movant],
[2] the length of the delay and its potential
impact on judicial proceedings, [3] the reason
for the delay, including whether it was within
the reasonable control of the movant, and
[4] whether the movant acted in good faith.
507 U.S. at 395. We have endorsed the Board’s use of
the Pioneer factors for determining excusable neglect
in the context of its own regulations. FirstHealth of

App.7a
Carolinas, Inc. v. CareFirst ofMaryland, Inc., 479 F.3d
825, 828-29 (Fed. Cir. 2007). We review the Board’s
application of the factors for an abuse of discretion.

Id.
On appeal, Kaszuba argues that the Board erred
in its excusable neglect determination. Specifically,
Kaszuba contends that the Board combined the first
two factors and overlooked the fact that HVL filed
the amended petitions seven months after the initial
petition. Appellant’s Br. 13. In Kaszuba’s view, this
negates the Board’s finding that HVL’s delay was
“short.” Kaszuba therefore asks us to reverse the
Board’s ruling. We see no error or abuse of discretion
in the Board’s analysis.
With respect to the first Pioneer factor, the
Board found that there was no evidence of prejudice
to Kaszuba by reopening the time for HVL for file its
amended petition. The Board did not see any “surprise”
to Kaszuba or disruption to the orderly administration
of the proceeding on account of the minimally delayed
filing. As to the second factor, the Board determined
that the delay was not significant. HVL filed an
amended petition only three days out of time, and
most of that period fell over a weekend. The Board
determined that the third factor (reason for delay) was
within HVL’s reasonable control. As to the fourth
factor (bad faith), the Board concluded that there
was no allegation or evidence of any bad faith. Con­
sidering the four factors together, the Board found
that the lack of prejudice outweighs the fact that the
delay was caused by HVL’s negligence. It therefore
concluded that HVL had established excusable neglect.
We have previously affirmed the Board’s refusal
to find excusable neglect where counsel did not provide

App.8a
an explanation as to why other authorized individuals
in the same firm could not have assumed responsibility
for the case. See FirstHealth, 479 F.3d at 829 (finding
no excusable neglect where the second and third factors
weighed against such a finding). But, as the Supreme
Court has explained, the excusable neglect inquiry is
an equitable one, and the Board properly considered
all the circumstances surrounding HVL’s delay. Here,
as the Board noted, the delay was short. Given these
circumstances, we see no abuse of discretion in the
Board’s determination of excusable neglect.3
Having determined that there was no abuse of
discretion in excusing the three-day delay in HVL’s
filing of its amended petition, we now turn to the
remaining issues on appeal with the understanding
that HVL’s Second Amended Petition is the operative
petition in this proceeding.
B. Motion to Dismiss
The Board’s denial of a motion to dismiss pursuant
to Rule 12(b)(6) is a question of law that we review
de novo. See Sunrise Jewelry Mfg. Corp. v. Fred S.A.,
175 F.3d 1322, 1324 (Fed. Cir. 1999). On review, we
accept the non-movant’s allegations as true and draw
all reasonable inferences in the non-movant’s favor.
Id. “Dismissal is appropriate ‘if it is clear that no
relief could be granted under any set of facts that
3 We reject Kaszuba’s contention that HVL’s filing was, in fact,
delayed by seven months. Kaszuba either misunderstands or
misrepresents the procedural posture at issue. Kaszuba answered
HVL’s initial petition, and the Board instituted the proceeding.
It was only after a discovery conference months later that the
Board directed HVL to amend its petition, which HVL did,
albeit three days late.

App.9a
could be proved consistent with the allegations.’”
Young v. AGB Corp., 152 F.3d 1377, 1379 (Fed. Cir.
1998) (quoting Abbott Labs. v. Brennan, 952 F.2d 1346,
1353 (Fed. Cir. 1991)). On appeal, Kaszuba challenges
the Board’s determination that HVL sufficiently pled
entitlement to bring this cancellation proceeding and
its fraud claim. We address each in turn.
1. Entitlement to Seek Cancellation
We note, as we have in other recent cases, that
it is improper to discuss requirements for establishing
a statutory cause of action in terms of “standing.”
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
572 U.S. 118, 128 n.4 (2014); Australian Therapeutic
v. Naked TM, LLC, No. 19-1567, Slip. Op. at 5
(Fed. Cir. July 27, 2020); Ritchie v. Simpson, 170 F.3d
1092, 1094 (Fed. Cir. 1999) (‘“case’ and ‘controversy’
restrictions for standing do not apply to matters
before administrative agencies and boards, such as
the [US]PTO.”)< Kaszuba and the Board both make
this mistake in this cancellation proceeding, as does
the Director. The requirements to bring a cancellation
proceeding under 15 U.S.C. § 1064 are appropriately
viewed as interpretations of a statutory cause of
action. See Empresa Cubana Del Tabaco v. General
Cigar Co., Inc., 753 F.3d 1270, 1275 (Fed. Cir. 2014)
(citing Lexmark, 572 U.S. at 125-28).
Section 1064 permits a petitioner to seek cancella­
tion of a registered trademark if he believes that he
is or will be damaged by the registered trademark.
Id. The petitioner must demonstrate (l) a real interest
in the proceeding and (2) a reasonable belief of
damage. Empresa Cubana, 753 F.3d at 1275. These
“elements] of a cause of action ... must be adequately

App.lOa
alleged at the pleading stage in order for the case to
proceed.” Lexmark, 572 U.S. at 134 n.6 (citing Ashcroft
v. Iqbal, 556 U.S. 662, 678-679 (2009)). For purposes
of our review, we “accept as true all well-pled and
material allegations of the complaint, and must con­
strue the complaint in favor of the complaining
party.” Ritchie, 170 F.3d at 1097.
Kaszuba argues that HVL did not adequately
plead “standing” to bring the cancellation proceeding
because it failed to allege a reasonable belief of damage
from Kaszuba’s registered mark. Appellant’s Br. 10. In
Kaszuba’s view, HVL should have addressed the other
issues raised in the Board’s rejection before it could
allege a reasonable belief of damage from Kaszuba’s
mark. Id. at 11. Kaszuba also challenges HVL’s owner­
ship of the rejected trademark application, arguing
that, without an ownership interest in the application,
HVL cannot bring this cancellation proceeding. Id. at
9-10. Kaszuba’s arguments are meritless.
A petitioner may demonstrate entitlement to
seek cancellation of a registered mark if the USPTO
rejects its trademark application based on a likelihood
of confusion with the registered mark. See Empresa
Cubana, 753 F.3d at 1274-75. In Empresa Cubana,
we held that petitioner’s trademark application is a
“legitimate commercial interest,” satisfying the real
interest requirement. Id. And, we explained that
“blocking” of a petitioner’s trademark application
was sufficient to demonstrate a reasonable belief of
damage. Id. HVL’s Second Amended Petition included
allegations along exactly these lines.
Specifically, HVL pled a real interest in the
proceeding because it stated that its predecessors-ininterest filed Trademark Application No. 86/069,833,

App.lla
to register the HOLLYWOOD VODKA mark. J.A. 26061. HVL also alleged that it acquired all interest and
goodwill in that application from the original applicants
by virtue of an assignment. J.A. 261. And, HVL
alleged that the USPTO rejected its application
based on a likelihood of confusion with Kaszuba’s
registered HOLLYWOOD BEER mark. Thus, HVL
sufficiently pled both the real interest and reasonable
belief of damage elements of the cause of action
under § 1064. This is hardly a case, therefore, where
the petition contains general allegations of harm. See
e.g. Bank v. A1 Johnson’s Swedish Rest. & Butik,
Inc., 795 F. App’x 822, 825 (Fed. Cir. 2019) (finding
claimant had failed to plead a reasonable basis for
his belief of damage where he alleged that the Goats
on the Roof Registration was “offensive to numerous
persons” including himself).
We also reject Kaszuba’s arguments based on
HVL’s alleged lack of ownership in the HOLLYWOOD
VODKA application. First, at the pleadings stage,
“the facts asserted by [the petitioner] need not prove
his case on the merits.” Ritchie, 170 F.3d at 1098. Of
course, HVL’s allegations do not conclusively establish
entitlement to bring this cancellation proceeding and
it must prove its case. But, as discussed above, HVL’s
allegations survive a motion to dismiss. Second, we
have recently held that “neither § 1064 nor our pre­
cedent require that a petitioner in a cancellation
proceeding must prove that it has proprietary rights
in its own mark in order to demonstrate a real interest
in the proceeding and a belief of damage.” Australian
Therapeutic, Slip. Op. at 7. Accordingly, the Board
did not err in concluding that HVL sufficiently pled
entitlement to bring this cancellation proceeding.

App.l2a

2. Fraud
“Fraud in procuring a trademark registration or
renewal occurs when an applicant knowingly makes
false, material representations of fact in connection
with his application.” In re Bose Corp., 580 F.3d
1240, 1243 (Fed. Cir. 2009) (internal quotations and
citations omitted). Federal Rule of Civil Procedure 9
(b), applicable to Board proceedings under 37 C.F.R.
§ 2.116(a), requires that “[i]n alleging fraud or mistake,
a party must state with particularity the circumstances
constituting fraud or mistake.” Fed. R. Civ. P. 9(b).
But, the rule explains, “[mlalice, intent, knowledge,
and other conditions of a person’s mind may be
averred generally.” Id. We have construed the rule to
require “identification of the specific who, what, when,
where, and how of the material misrepresentation or
omission committed before the [US]PTO.” Exergen
Corp. v. Wal-Mart Stores, Inc., 575 F.3d 1312, 1328
(Fed. Cir. 2009) (construing Rule 9 in the context of
pleading inequitable conduct in patent cases).
The Board concluded that HVL had sufficiently
pled its claim of fraud by alleging that: (l) Kaszuba
submitted fabricated specimens during prosecution
of his trademark; (2) Kaszuba knew that his representa­
tion was false at the time he signed the statement of
use in his application; (3) this false representation
was material to the USPTO’s examination of Kaszuba’s
application for registrability; and (4) Kaszuba intended
to deceive the USPTO into issuing the registration.
J.A. 371.
Kaszuba argues that, contrary to the Board’s
conclusion, HVL did not plead fraud with a heightened
degree of particularity and did not allege any instances
of willful or knowingly-made false representations

App.l3a

during prosecution of the application. Appellant’s Br.
15. Kaszuba takes issue with the fact that HVL
alleged fraudulent representations “on information
and belief.” Id. He also contends that HVL’s fraud
allegations are premised on allegations that Kaszuba
“knew or should have known” that his statements
were false. Id. Such allegations, according to Kaszuba,
allege mere negligence, not fraud or intent to deceive.
Id. at 16. We are not convinced.
As the Director points out, Kaszuba misunder­
stands Rule 12(b)(6) and the Board’s orders. Director’s
Br. 41-43. For one, Kaszuba points to cases that
discuss the requirements of proving allegations of
fraud and intent to deceive. But on a motion to
dismiss pursuant to Rule 12(b)(6), we are not concerned
with whether HVL can prove its allegations of fraud
and intent to deceive on the merits. Instead, we look
to whether HVL has pled its fraud claim with
particularity. We conclude that it has.
In its Second Amended Petition, HVL alleged that,
pursuant to applicable federal regulations, Kaszuba
was required to register his beer label on the Certificate
of Label Approval (“COLA”) registry before selling
beer in commerce. J.A. 262. HVL alleged that no
such label was registered on the COLA registry, even
though Kaszuba represented to the USPTO during
prosecution of his trademark registration application
that he was selling beer in commerce. HVL also
alleged that Kaszuba knowingly made false material
statements to the USPTO by stating that the HOLLY­
WOOD BEER mark was in use on goods as of the
date of the application. J.A. 264. And, HVL alleged
that Kaszuba submitted false specimens of labels to
fraudulently induce the USPTO to issue his use-based

App.l4a

trademark registration. Id. HVL alleged that Kaszuba
knew that the HOLLYWOOD BEER mark was not in
use in commerce on beer as of the filing date of his
application. J.A. 265. Finally, HVL alleged that
Kaszuba similarly misrepresented to the USPTO that
the HOLLYWOOD BEER mark was in use on goods
as of the date of filing his Section 8 Affidavit in order
to maintain his registration of the mark. J.A. 266.
These allegations, taken together, provide the
“specific who, what, when, where, and how of the
material misrepresentation or omission committed
before the [US]PTO.” Exergen Corp., 575 F.3d at
1328.4 Accordingly, we hold that the Board did not
err in concluding that HVL sufficiently pled its fraud
claim.
C. Default Judgment
In cases of “repeated failure to comply with
reasonable orders of the . .. Board, when it is apparent
that a lesser sanction would not be effective[,]” the
Board may order appropriate sanctions as defined in
Trademark Rule 2.120(g)(1) and Fed. R. Civ. P.
37(b)(2), including entry of judgment. Benedict v.
Super Bakery, Inc., 665 F.3d 1263, 1268-69 (Fed. Cir.
2011). We review decisions concerning discovery
sanctions for abuse of discretion. Carolina Exports Int%
Inc. v. Bulgari, S.p.A., 108 F.3d 1394 (Fed. Cir. 1997).

4 Kaszuba also argues that the “late-filed” Amended Petition
pled “abandonment,” not fraud. Appellant’s Br. 15. We reject
this argument because it focuses on a typographical error in
HVL’s Amended Petition that was corrected by HVL in the
operative Second Amended Petition.

App.l5a
Kaszuba argues that the cancellation of his mark
as a sanction was unjust and based on “erroneous
and inadequate findings.” Appellant’s Br. 21. He
laments being unable to have his day in court and
being denied his right to be heard on the merits. But,
Kaszuba does not offer any explanation for his refusal
to comply with the Board’s orders compelling dis­
covery, despite the multiple extensions afforded to
him. Nor does he provide any basis for us to conclude
that the Board abused its discretion in imposing the
sanction of default judgment. Instead, Kaszuba con­
tends that it was unjust to cancel his mark given the
“confusion” regarding the operative pleading, the con­
tention regarding which of the attorneys represented
HVL, and the fact that the discovery was outside the
scope of the undismissed claim at issue. Appellant’s
Br. 21. We do not agree.
The record supports the conclusion that the
Board did not abuse its discretion in imposing the
sanction of default judgment, harsh as it may be. The
Board found that no less drastic remedy would be
effective and that there was a strong showing of willful
evasion by Kaszuba. See J.A. 5 (“We believe [such a]
situation exists here.”). In entering default judgment,
the Board concluded that, rather than complying
with its orders, Kaszuba “repeatedly and willfully
acted in a manner to evade” the discovery requests.
We see no abuse of discretion here. The November
27, 2017 Order compelling discovery warned Kaszuba
that he was risking default judgment by not responding
to the discovery. In subsequent orders and commu­
nications, the Board repeatedly reminded Kaszuba to
comply with the November 27, 2017 Order. It also
denied HVL’s initial motions for sanctions, and gave

App.l6a
Kaszuba multiple extensions to comply with the
November 27, 2017 Order. Rather than complying
with the discovery order, Kaszuba chose to file untimely
petitions with the Director requesting review of the
Board’s orders and alleging unfair treatment by the
Board. Kaszuba never served the discovery responses.
Like the trademark owner in Benedict, Kaszuba
“continually failed to comply with Board orders,
and .. . hampered reasonable procedures appropriate to
resolution of this trademark conflict [and] . . . offered
no explanation of why no discovery responses had
been made.” Benedict, 665 F.3d at 1269. Accordingly,
we conclude that the Board did not abuse its dis­
cretion in entering default judgment against Kaszuba.
CONCLUSION
We have considered Kaszuba’s remaining argu­
ments and find them unpersuasive. For the foregoing
reasons, the decision of the Board is affirmed.
AFFIRMED
COSTS
The parties shall bear their own costs.

App.l7a
ORDER OF THE UNITED STATES COURT
OF APPEALS FOR THE FEDERAL CIRCUIT
DENYING MOTIONS TO RECONSIDER
(NOVEMBER 18, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
KRIS KASZUBA, dba Hollywood Group,
Appellant,
v.
ANDREI IANCU,
Director, U.S. Patent and Trademark Office,
Intervenor.
2019-1547
Appeal from the United States Patent and
Trademark Office, Trademark Trial and
Appeal Board in No. 92061976.
PER CURIAM.
The court construes Kris Kaszuba’s submissions
received October 29, 2019 and November 4, 2019 (ECF
Nos. 26 and 29) as motions to reconsider the court’s
August 30, 2019 order (ECF No. 21) adding the
Director of the United States Patent and Trademark
Office as Intervenor in this appeal.
Upon consideration thereof,

App.l8a
IT IS ORDERED THAT:
The motions are denied.
FOR THE COURT
/s/ Peter R. Marksteiner
Clerk of Court
Date: November 18, 2019

App.l9a
DECISION OF THE TRADEMARK TRIAL AND
APPEAL BOARD OF THE UNITED STATES
(DECEMBER 13, 2018)
United States Patent and Trademark Office
Trademark Trial and Appeal Board
P.O. Box 1451
Alexandria, VA 22313-1451
General Contact Number: 571-272-8500
General Email: TTABInfo@uspto.gOv
HOLLYWOOD VODKA LLC
v.
HOLLYWOOD GROUP
Cancellation No. 92061976
Before: BERGSMAN, WELLINGTON and
HIGHTOWER, Administrative Trademark Judges.
By the Board:
This case now comes up for consideration of
Petitioner’s renewed motion (filed July 6, 2018) for
entry of judgment as a “terminating sanction! ]” under
Trademark Rule 2.120(h)(1) for Respondent’s failure
to comply with the Board’s November 27, 2017 order
relating to discovery, 58 TTABVUE, in connection with
discovery requests that Petitioner served on May 16,

App.20a
2017.1 Respondent, who is appearing pro se, filed a
brief in opposition thereto.
In the November 27, 2017 order, the Board
granted Petitioner’s motion to compel discovery, 53
TTABVUE, and allowed Respondent until December
12, 2017 to serve responses without objection to
Petitioner’s discovery requests. After Respondent failed
to serve responses in compliance therewith, Petitioner,
on December 14, 2017, filed a motion for entry of
judgment as a sanction for failure to comply with the
November 27, 2017 order, 61 TTABVUE. In a March
12, 2018 order, 67 TTABVUE, the Board denied that
motion and allowed Respondent until April 11, 2018
to comply with the November 27, 2017 order.2 After

1 Trademark Board Manual of Procedure (TBMP) Chapter 500,
which discusses motion practice in Board inter partes proceedings,
does not refer to “terminating sanctions.” However, Petitioner’s
motion is clearly one for entry of judgment as a sanction under
Trademark Rule 2.120(h)(1) for failure to comply with a Board
discovery order. <SeeTBMP § 527.01(a) (2018).
2 In the March 12, 2018 order, the Board stated in relevant part
as follows:
[T]he record herein convinces us that Respondent
has not made a good faith effort to satisfy petitioner’s
discovery needs but rather has deliberately sought to
evade and frustrate Petitioner’s attempts to secure
discovery. Respondent’s conduct tries the Board’s
patience and has delayed this proceeding unnec­
essarily. The Board’s November 27, 2017 order
unequivocally directed Respondent to respond to
Petitioner’s discovery requests without objection
and to produce documents by December 12, 2017.
Proceedings herein were not suspended following the
issuance of that order. As such, it was incumbent
upon Respondent to comply fully with that order,

App.21a
Respondent filed a series of submissions, 68, 70, 71,
73, and 75-76 TTABVUE, the Board, in an April 23,
2018 order, allowed Respondent until May 11, 2018
to comply with the November 27, 2017 order.3 After
Respondent failed to serve any discovery, Petitioner
sought—and the Board convened—a telephone con­
ference to seek leave to file a renewed motion for
entry of sanctions.4 After a May 24, 2018 conference,
the Board granted such leave in a May 29, 2018 order.
78 TTABVUE. The present motion followed.
notwithstanding that Petitioner sent a settlement offer
on December 7, 2017.
67 TTABVUE 4.
3 In the April 23, 2018 order, the Board stated in relevant part
as follows:
Any further pretrial submissions from Respondent
must include an affirmative statement made under oath
that it has complied fully with the Board’s November
27, 2017 order, i.e., that it has responded fully and
without objection to Petitioner’s interrogatories and
document requests and that it has served all respon­
sive documents.
74 TTABVUE 9.
4 Previously, the Board, in a March 10, 2016 order, required each
party to contact the Board when it filed an unconsented motion
to extend or suspend proceedings so that such motion could be
resolved by telephone conference. 18 TTABVUE 11. In that order,
the Board also required the parties, prior to filing a motion to
compel discovery, to contact the assigned interlocutory attorney
to convene a telephone conference to discuss whether the movant
had made the requisite good faith effort to resolve the parties’
discovery dispute. 18 TTABVUE 10 n. 8. In addition, in a January
23, 2017 decision denying Respondent’s petition to disqualify
Petitioner’s attorney, Respondent was “required to obtain leave
of the assigned Interlocutory Attorney in order to file any future
submissions in this case.” 45 TTABVUE 5.

App.22a

In response to Petitioner’s motion, Respondent
contends that the motion for sanctions is not properly
before the Board. In particular, Respondent asserts
that the email in which Petitioner served that motion
(l) contained “no reference to it being a Proof of
Service and no reference to what the subject was;” (2)
was unsigned, and (3) was also sent to Antonia
Bebar, a non-party, at her email address. 83 TTABVUE
3. Ms. Bebar signed certificates of service of various
filings of Respondent’s in this case, but her title or
role has not been identified. See, e.g., 73 TTABVUE
5, 83 TTABVUE 7, and 84 TTABVUE 2.
We note initially that a determination of sufficiency
of service is generally based on the statements in the
certificate of service and not on the content of the
service email. See Trademark Rule 2.119. Respondent
has not alleged any deficiencies in the certificate of
service of the motion for sanctions itself and has not
alleged nonreceipt of that motion. The certificate of
service of that motion, 79 TTABVUE 12, states the
date, manner of service, and email addresses to
which the motion was served. The certificate of
service therefore complies fully with Trademark Rules
2.119(a) and (b). Moreover, the July 6, 2018 email at
issue, 83 TTABVUE 8, directs Respondent to “the
attached document filed today with the” Board and
includes a block of identifying information for the
sender of that email, Petitioner’s attorney Douglas
Lipstone. Thus, that email contained clear indicia of
the nature and sender of the document at issue and
that the email was sent to Respondent at his email

App.23a

addresses of record.5 Ultimately, Petitioner’s service
on Ms. Bebar appears to be merely a courtesy copy
on a person who was signing certificates of service on
behalf of Respondent. Petitioner’s service of the renewed
motion for sanctions was proper. Respondent’s request
that the Board to strike any reference to Ms. Bebar
from the certificate of service of Petitioner’s motion is
denied.
Respondent further contends that Petitioner’s
attorneys committed “perjury” by stating that they
“lack any information” concerning Respondent’s efforts
to hire an attorney in this case.6 83 TTABVUE 4.
Even if we assume that Respondent sought to retain
an attorney at various points in this case, this would
not excuse Respondent’s continued noncompliance
with the November 27, 2017 order. Respondent was
advised at least twice in this case to seek counsel, 1
TTABVUE 5 and 18 TTABVUE 2 n.3, and its principal
expressed interest in hiring an attorney during a
December 7, 2017 telephone conference discussed in
the Board’s December 12, 2017 order. 60 TTABVUE
3. Notwithstanding that Respondent has appeared
5 Because the Board granted Petitioner leave to file a renewed
motion for sanctions, 78 TTABVUE, Respondent should have
reasonably expected to be served a renewed motion for sanctions.
6 Respondent’s stated efforts that it sought counsel are vague.
Respondent stated generally its brief in response to Petitioner’s
motion to compel, 55 TTABVUE 9 and 83 TTABVUE 10, and in
a December 7, 2017 telephone conference, 60 TTABVUE 3, that
its principal has been seeking counsel to assist in this case.
The record also indicates that Respondent sent brief inquiry
emails to two attorneys on December 12 and 26, 2017, but does
not indicate Respondent’s contact with either attorney went any
further. 62 TTABVUE 7 and 83 TTABVUE 9 and 11.

App.24a

pro se throughout this case, the Board expects all
parties appearing before it, regardless of whether
they are represented by counsel, to comply with
applicable rules and Board orders. See McDermott v.
San Francisco Womens Motorcycle Contingent, 81
USPQ2d 1212, 1212 n.2 (TTAB 2006).
Respondent also alleges that Petitioner’s attorney
Shanen Prout falsely stated that he is “counsel of
record,” when he is only Petitioner’s co-counsel. 83
TTABVUE 5. Mr. Prout is one of Petitioner’s attorneys
of record. Whether he is counsel or co-counsel is a
matter of labor division between those attorneys and
is irrelevant to this case.
Although default judgment is a harsh remedy, it
is justified where no less drastic remedy would be
effective and there is a strong showing of willful
evasion. See Patagonia, Inc. v. Azzolini, 109 USPQ2d
1859, 1862 (TTAB 2014); Unicut Corp. v. Unicut,
Inc., 222 USPQ 341, 344 (TTAB 1984). We believe
that situation exists here.
Petitioner brought this action more than three
years ago. Respondent was required in the November
27, 2017 order to serve responses without objection
to Petitioner’s discovery requests by not later than
December 12, 2017, and received two extensions of time
to comply with that order. 67 TTABVUE 4-5 and 74
TTABVUE 9-10. However, in response to the renewed
motion for sanctions, Respondent did not dispute
that it has failed to serve any discovery responses in
this case and instead raised meritless arguments in
an apparent attempt to divert the Board’s attention
from this failure. Respondent was clearly warned of the
consequences of failing to comply with the November
27, 2017 order. 58 TTABVUE 6 and 67 TTABVUE 4-5.

App.25a
By papering the record of this case with dubious filings
instead of complying with that order, Respondent has
repeatedly and willfully acted in a manner to evade
Petitioner’s properly attempted discovery requests
and compliance with the November 27, 2017 order.
Respondent’s willful failure to comply with that order
of the Board after having been advised repeatedly of
the possible consequences warrants entry of judgment.
For the aforementioned reasons, Petitioner’s
renewed motion for sanctions is granted, judgment is
hereby entered against Respondent, the petition for
cancellation is granted, and Registration No. 3469935
will be cancelled in due course.

App.26a

ORDER OF THE UNITED STATES COURT
OF APPEALS FOR THE FEDERAL CIRCUIT
DENYING PETITION FOR REHEARING EN BANC
(OCTOBER 23, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
KRIS KASZUBA, dba Hollywood Group,
Appellant,
v.
ANDREI IANCU, Under Secretary of Commerce
for Intellectual Property and Director of the
United States Patent and Trademark Office,
Intervenor.
2019-1547
Appeal from the United States Patent and
Trademark Office, Trademark Trial and
Appeal Board in No. 92061976.
Before: PROST, Chief Judge, NEWMAN,
LOURIE, BRYSON*, DYK, MOORE, O’MALLEY,
REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.

* Circuit Judge Bryson participated only in the decision on the
petition for panel rehearing.

App.27a
PER CURIAM.
Appellant Kris Kaszuba filed a petition for rehear­
ing en banc. The petition was first referred as a petition
for rehearing to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on October
30, 2020.

FOR THE COURT
Is/ Peter R. Marksteiner
Clerk of Court
Date: October 23, 2020

